Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0576n.06
Case No. 19-4000
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
AESHA JOHNSON,
Defendant-Appellant.

)
)
)
)
)
)
)
)

FILED
Oct 08, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
OHIO

BEFORE: SILER, SUTTON, and LARSEN, Circuit Judges.
SILER, Circuit Judge. Defendant Aesha Johnson (Johnson) was convicted of one count of
conspiracy to commit wire fraud, multiple counts of wire fraud, and multiple counts of aggravated
identity theft. She now alleges six instances of reversible error. We AFFIRM.
FACTUAL AND PROCEDURAL HISTORY
In 2012, Johnson was convicted of filing false tax returns, for which she began serving a
term of imprisonment. While incarcerated, Johnson began the fraudulent scheme forming the basis
for her current convictions. Johnson engaged in a tax fraud scheme with her daughter, Brittany
Williams (Williams), who served as Johnson’s outside-of-prison contact.
After Johnson and Williams were indicted, Williams pleaded guilty to all 29 counts of the
indictment. The grand jury then returned a superseding indictment against Johnson, charging her
with one count of conspiracy to commit wire fraud, 14 counts of wire fraud, 14 counts of

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 2

Case No. 19-4000, United States v. Johnson
aggravated identity theft, and one count of witness tampering. The trial jury found Johnson guilty
on all charges, except the witness tampering charge, as the district court acquitted her on that
charge. The district court sentenced Johnson to a term of 208 months’ imprisonment plus $63,708
in restitution.
DISCUSSION
Johnson alleges six errors, three at the trial phase and three at the sentencing phase. Each
is taken in turn, and none requires reversal.
I.
a.

Trial Phase
Government’s Use of Johnson’s Co-Conspirator’s Plea Agreement

Johnson first alleges reversible error in the government’s use of Williams’s plea agreement
against Johnson. Seemingly conceding that the use of a nontestifying co-conspirator’s plea
agreement against a defendant violates the Confrontation Clause,1 the government instead argues
that Johnson invited that error because she first used Williams’s guilty plea as part of her defense
and created a misperception about what the agreement stated.
Johnson admits that her defense strategy was to “argue[] that Brittany [Williams] was the
actual perpetrator[,]” which is reflected in Johnson’s assertions during trial suggesting that
Williams, through her guilty plea, had either already taken sole responsibility for the crimes
charged of Johnson or committed them alongside another individual, Marc Lanier (Lanier), only.
Johnson first referenced Williams’s guilty plea in her opening statement. Johnson also discussed
Williams’s guilty plea while cross-examining two of the government’s witnesses. Following that
testimony, the government moved to admit a copy of Williams’s plea paperwork because “defense
counsel mischaracterize[d] the crime to which [Williams] has pleaded guilty as her admitting to
See United States v. McClain, 377 F.3d 219, 222 (2d Cir. 2004) (“The admission of the plea allocutions
of [co-conspirators] violated defendants’ Confrontation Clause rights.”).
1

-2-

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 3

Case No. 19-4000, United States v. Johnson
doing the taxes, when in fact the change of plea or the guilty plea in this case was to admitting to
conspiring with . . . Aesha Johnson, to commit the crime.” The district court permitted the
introduction of Williams’s plea paperwork into evidence, revealing that Williams pleaded guilty
to conspiring to commit the charged crimes specifically with Johnson.
“The doctrine of ‘invited error’ refers to the principle that a party may not complain on
appeal of errors that he himself invited or provoked the court or the opposite party to commit.”
United States v. Sharpe, 996 F.2d 125, 129 (6th Cir. 1993) (citations omitted). The application of
the invited error doctrine in the case sub judice is almost indistinguishable from its application in
United States v. O’Reilly, 469 F. App’x 441, 442 (6th Cir. 2012) (finding that invited error doctrine
precluded review of allegation of error in admission of additional evidence of other robberies and
murder-for-hire efforts referenced in the defendant’s opening statement). Johnson cannot now
complain of the admission into evidence of the very matter she first brought up and seemingly
mischaracterized at her trial several times. See United States v. Ramos, 861 F.2d 461, 468–69 (6th
Cir. 1988) (“[W]hen a party opens up a subject . . . [the party] cannot complain on appeal if the
opposing party introduces evidence on the same subject.” (citations omitted) (internal quotation
marks omitted)).
b.

Relevance and Unfair Prejudice

Johnson’s second allegation of error is that the trial court admitted what Johnson calls
irrelevant and unfairly prejudicial evidence. Specifically, Johnson takes issue with the following
evidence that was admitted: (1) Williams’s plea agreement and 2015 statements about the
conspiracy; (2) text messages exchanged between Johnson and Williams in 2015; (3) witness
testimony about Johnson’s relationship and interactions with Williams while Williams was being

-3-

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 4

Case No. 19-4000, United States v. Johnson
investigated in 2015 and 2016 for passing a counterfeit bill; and (4) “vanilla [credit] cards” found
in Williams’s car as a result of that 2015–2016 investigation.
Beginning with the introduction of Williams’s plea agreement, Johnson made that evidence
relevant by referencing Williams’s guilty plea numerous times in her opening statement and
examinations of witnesses. This is also why Johnson cannot now claim undue prejudice from the
admission of the plea agreement—she put the plea agreement at issue.
As for Williams’s statements made in 2015 about the conspiracy, these statements detailing
the scheme charged against Johnson were relevant, regardless of whether they were made during
or after the conspiracy. Additionally, Johnson has not identified any specific unfair prejudice
stemming from the admission of these statements other than the inherent damage this evidence did
to her case, which is an insufficient basis for exclusion under Fed. R. Evid. 403.
Regarding the remaining evidence, Johnson’s arguments of irrelevancy and unfair
prejudice appear to stem from a flawed premise. Specifically, regarding the 2015 text messages,
Johnson argues “[p]ursuant to the indictment, the scope of the conspiracy here was from November
6, 2013 ‘through on or about April 15, 2014.’ Therefore, any statements to further criminal acts
occurring after this latter date are presumably not relevant to the jury’s consideration of the charged
offenses.” However, a superseding indictment filed in her case sets out the relevant dates of the
conspiracy as between January 1, 2013 and February 1, 2016, which overrides the dates on which
she bases her arguments. Johnson’s argument for the irrelevancy and unfair prejudice of the
aforementioned evidence is based on Johnson’s mistaken reliance on the time period set out by the
original indictment, which was superseded.
Regarding the 2015 text messages exchanged between Williams and Johnson, the only
specific messages Johnson takes issue with are two messages that she sent. Those text messages

-4-

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 5

Case No. 19-4000, United States v. Johnson
were relevant because they potentially shed light on Johnson’s role in articulating an untraceable
way that she and Williams could either communicate about or further act in their scheme.
Similarly, the vanilla credit cards, which were described as “blank cards[,]” were found among
debit cards in Williams’s car and were the type of card used to load funds from fraudulently
obtained tax return proceeds as a part of the scheme. Finally, the witness who investigated
Williams’s counterfeit bill use described Johnson’s relationship with Williams as Johnson
“hovering” over Williams, “direct[ing] her[,]” and acting as the “gatekeeper” to Williams. Such
testimony evidenced the dominant influence Johnson had over Williams in support of the
government’s assertion that Johnson was the mastermind behind the scheme at issue. Although
these observations were made in 2015 and 2016, Johnson has not shown why it can be said that
her tax fraud scheme ended before those dates. All of the aforementioned evidence was relevant
to shed light on the relationship between Johnson and Williams and the details of their scheme.
c.

Testimony that Williams Spoke “Untruthfully” During Pretrial Interview

Johnson’s third allegation of error is that the district court improperly allowed a
government witness, Agent Richard Kushan of the Internal Revenue Service, to testify that
Williams spoke “untruthfully” during a pretrial interview.
Kushan conducted a “proffer” interview of Williams, which is “when somebody can come
in and provide information to the government . . . and [the government] will not use that
information against them directly in any type of investigation.” During the proffer, Williams
“claimed that she wasn’t aware and didn’t have very much knowledge of the scheme . . . [and] that
an individual named Marc Lanier that [Johnson] knew was threatening her and that she needed to
help pay off a debt that [Johnson] owed Mr. Lanier.” At trial, the government asked Kushan
whether he believed Williams’s statements were truthful or untruthful “[b]ased upon [Kushan’s]

-5-

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 6

Case No. 19-4000, United States v. Johnson
knowledge learned during the course of the investigation.” Kushan answered, “based on my
knowledge in the course of the investigation, the statements that Ms. Williams made during that
original proffer interview were untruthful.”
Kushan then outlined specifically why he believed Williams’s statements were untruthful:
A

Q

A
Q
A
Q
A
Q
A
Q
A
Q
A
Q
A

She seemed kind of angry at times and argumentative when confronted with
information about this tax scheme. The story also didn’t really kind of add
up or make much sense when we kind of compared it with what was in the
jail calls and the e-mails.
Okay. Now, you mentioned there was some indication that there was some
sort of – a Marc Lanier that Brittany Williams put the blame on in this case.
Did you conduct follow-up investigation involving looking into Mr. Lanier?
Yes, we looked up – we looked into Mr. Lanier.
Was he alive or dead at the time?
He was currently deceased at that time.
All right. Did you find anything in the jail calls or e-mails relating to a Mr.
Lanier?
No, we did not.
Did you find anything in the IP records?
No, we did not have any IP records that went back to Mr. Lanier.
What about any addresses, related addresses?
No, not that I’m aware of, none of the addresses.
For the tax years 2012 and ’13 that are part of this conspiracy, did you find
any bank records that related back to Mr. Lanier?
2012 and 2013, no, we did not.
So based upon this subsequent investigation, did you learn whether this
information was true or false?
We learned that the information provided was false.

Johnson’s main argument here is that Kushan improperly vouched for or bolstered
Williams’s credibility by testifying that Williams was untruthful during her first proffer interview,
insinuating that Williams was then truthful during a second proffer interview when she implicated
Johnson in the scheme. This court in United States v. Martinez, 253 F.3d 251, 253–54 (6th Cir.
2001), dealt with a similar issue. As in Martinez, the prosecutor here never made any comments
indicating a personal belief as to Williams’s credibility; rather, the prosecutor elicited testimony
-6-

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 7

Case No. 19-4000, United States v. Johnson
from Kushan regarding Williams’s credibility. Id. at 254. Thus, the correct characterization of
the issue here is whether the government engaged in improper bolstering, not vouching. See id.
And in that vein, the government did not engage in improper bolstering because, unlike in
Martinez, the government did not commit the fatal flaw of failing to “draw out” why Williams’s
statements were uncorroborated. Id. Instead, the prosecutor here engaged in a lengthy colloquy
with Kushan, who outlined all of the reasons why Williams’s statements in her first proffer were
false, including the fact that Williams’s story did not square with the incriminating jail calls and
e-mails the government had and because there was no indication that Lanier was involved in the
scheme. In sum, no improper vouching or bolstering occurred.
Johnson also appears to argue that the trial court plainly erred when allowing Kushan to
testify as both an expert and fact witness. Although there is no indication from the record that
Kushan was ever formally designated as an expert, “[w]hen an agent gives opinions that rely on
the agent’s specialized training as a law enforcement officer, that testimony is expert testimony,
and the agent must be qualified under Rule 702.” United States v. Kilpatrick, 798 F.3d 365, 384
(6th Cir. 2015) (citation omitted). That being said, “when an agent relies on his or her personal
knowledge of a particular investigation, the agent’s opinion may be lay opinion testimony under
Rule 701.” Id. (citations omitted). “[W]hen a witness gives both fact and expert testimony, the
district court must give a cautionary jury instruction regarding the [witness’s] dual witness roles
or there must be a clear demarcation between [the witness’s] fact testimony and expert opinion
testimony.” United States v. Ham, 628 F.3d 801, 806 (6th Cir. 2011) (citations omitted) (internal
quotation marks omitted).
Even though there is no indication the district court gave a cautionary jury instruction here,
“the line of demarcation between” Kushan’s expert and fact witness testimony as it pertains to

-7-

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 8

Case No. 19-4000, United States v. Johnson
Kushan’s statement that Williams spoke untruthfully during her first proffer is “indisputably
clear.” United States v. Martin, 520 F.3d 656, 659 (6th Cir. 2008). When providing the basis for
his belief in that regard, Kushan always provided fact-specific reasons and indicated that it was
based on information gathered from the investigation, not any specialized expertise he possessed
in his field.
Finally, a generous reading of Johnson’s brief suggests that she has also cursorily argued
that it was impermissible for Kushan to specifically make the comment that Williams was
“untruthful” during her first proffer. On this point, however, Johnson has otherwise “le[ft] it to
the court to seek out the relevant law, identify the relevant evidence, and develop [Johnson’s]
argument for [her].” United States v. Bradley, 917 F.3d 493, 509, 511 (6th Cir. 2019) (refusing to
address potential issue of first impression “adverted to in a perfunctory manner, unaccompanied
by some effort at developed argumentation” (citations omitted) (internal quotation marks
omitted)). Johnson has not articulated why it is improper for an interviewing officer to testify
specifically that an interviewee lied during an outside-of-court interview. On that point, courts
appear to permit lay witness testimony from an interviewing officer that a person “was not telling
the truth” during a pretrial interview. See, e.g., United States v. Churchwell, 807 F.3d 107, 118–
19 (5th Cir. 2015).
In sum, the trial court did not err in allowing Kushan to testify that Williams was untruthful
during a pretrial interview.
II.
a.

Sentencing Phase
Loss Calculation

Johnson’s first allegation of error at the sentencing phase is that the district court erred in
calculating loss in determining her sentence. See generally USSG § 2B1.1(b). Specifically,

-8-

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 9

Case No. 19-4000, United States v. Johnson
Johnson’s only argument on this point is that the district court considered certain factors it should
not have in coming to the amount that it did. “[W]e review the district court’s methodology for
calculating loss de novo. An error with respect to the loss calculation is a procedural infirmity that
typically requires remand.” United States v. Warshak, 631 F.3d 266, 328 (6th Cir. 2010) (citations
omitted).
The district court found the total loss calculation in this case to be $285,445. Johnson
argues that the district court should have calculated the total loss to be $63,708 after removal of
three improper considerations: (1) figures from returns that either could not be or were not paid
out; (2) Williams’s admission that the total loss in the scheme was $282,922; and (3) figures from
other tax returns that were not specifically identified as the basis for Johnson’s convictions in this
case. Johnson, however, provides no support for her assertion that these considerations were
improper.
Johnson’s assertion that the district court erred in utilizing refund amounts that were not
actually paid out or that were impossible or improbable to pay out is directly refuted by the
guidelines. In fraud cases, “[l]oss under [USSG § 2B1.1](b)(1) is defined as ‘the greater of actual
loss or intended loss.’” United States v. Vance, 956 F.3d 846, 860 (6th Cir. 2020) (quoting USSG
§ 2B1.1 cmt. n.3(A)). The district court correctly considered proceeds from filed tax returns
Johnson intended to fraudulently obtain, regardless of whether those proceeds were paid out or
were impossible to pay out. See USSG § 2B1.1 cmt. n.3(A)(ii) (“‘Intended loss’ (I) means the
pecuniary harm that the defendant purposely sought to inflict; and (II) includes intended pecuniary
harm that would have been impossible or unlikely to occur . . . .”). Johnson also provides no
support for her assertion that a district court cannot consider a co-conspirator’s admission as to a
scheme’s total loss in calculating total loss as it pertains to another co-conspirator. Cf. United

-9-

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 10

Case No. 19-4000, United States v. Johnson
States v. Germosen, 139 F.3d 120, 129 (2d Cir. 1998) (finding that estimated loss amount provided
by co-conspirators was properly considered by district court in arriving at its loss calculation).
Nor does Johnson provide any support for her assertion that the district court erred in
considering figures from tax returns Johnson fraudulently filed that were not formally part of the
conduct with which she was charged. See United States v. Shannon, 803 F.3d 778, 787 (6th Cir.
2015) (“‘Conduct that is not formally charged . . . may enter into the determination of the
applicable guideline sentencing range.’ This ‘relevant conduct’ may be considered if it is ‘part of
the same course of conduct or common scheme or plan as the offense of conviction.’” (citations
omitted)). Johnson has not refuted the fact that all of the tax returns introduced by the government
against her to determine the total loss at her sentencing hearing were part of the same course of
conduct as the scheme forming the basis for her convictions. See United States v. Dyer, 908 F.3d
995, 1005–06 (6th Cir. 2018) (favorably citing United States v. Decker, 370 F. App’x 671, 673,
675–76 (6th Cir. 2010), where this court affirmed the district court’s consideration of, in
computing total intended loss, loss amounts over defendant’s six-year scheme, even though
defendant was only indicted on conduct for three of those years).
Johnson does not refute the government’s best evidence for its loss calculation here—the
sum of all the fraudulently filed tax return figures the government could locate. See United States
v. Baker, 501 F.3d 627, 629 (6th Cir. 2007) (“In reviewing individual Guidelines determinations,
we accept the district court’s factual findings unless clearly erroneous . . . .” (citing United States
v. Davidson, 409 F.3d 304, 310 (6th Cir. 2005))).
b.

Position of Trust

Johnson’s second allegation of error at the sentencing phase is that the trial court
improperly applied USSG § 3B1.3, which provides a two-level sentence enhancement when “the

- 10 -

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 11

Case No. 19-4000, United States v. Johnson
defendant abused a position of public or private trust, or used a special skill, in a manner that
significantly facilitated the commission or concealment of the offense . . . .” The district court
applied the abuse-of-trust enhancement “because [of] the fact that [Johnson] prepared taxes and .
. . held herself out to be a tax preparer.”
Although Johnson seems to argue that a position of trust did not exist here, this court has
found that a tax preparer holds a position of trust with his or her clients. United States v. Sedore,
512 F.3d 819, 825–26 (6th Cir. 2008). Johnson has not pointed to anything to call into question
the evidence the government points to supporting its assertion that Johnson held herself out to be
a tax preparer to the victims of her scheme.
c.

Substantial Financial Hardship

Johnson’s final claim of error is that insufficient evidence existed to support the district
court’s finding that five victims suffered “substantial financial hardship” under USSG §
2B1.1(b)(2)(B) so as to apply a four-level sentence enhancement. “In reviewing a district court’s
application of the Sentencing Guidelines, this Court will ‘accept the findings of fact of the district
court unless they are clearly erroneous . . . .” United States v. Moon, 513 F.3d 527, 539 (6th Cir.
2008) (citations omitted). “We review a district court’s legal conclusions regarding the Sentencing
Guidelines de novo.” Id. at 540 (citation omitted).
As Section 2B1.1(b)(2)(B) is a fairly recent addition to the Guidelines, Sixth Circuit
precedent in its application is scarce, which is why the parties point to this court’s unpublished
decision in United States v. Howder, 748 F. App’x 637 (6th Cir. 2018). Howder provides the
necessary guidance for the application of Section 2B1.1(b)(2)(B) in this case. Id. at 642–43; see
also United States v. Castaneda-Pozo, 877 F.3d 1249, 1252–53 (11th Cir. 2017) (“[W]e find here
that the district court did not clearly err by finding that victims suffered substantial financial

- 11 -

Case: 19-4000

Document: 33-2

Filed: 10/08/2020

Page: 12

Case No. 19-4000, United States v. Johnson
hardship when they were made insecure in life’s basic necessities.”). Johnson does not refute the
government’s assertion that five individuals under whose names she filed fraudulent tax returns
either lost or were at great risk of losing, at least temporarily, vital government assistance because
of Johnson’s actions.
CONCLUSION
Finding no merit in Johnson’s allegations of reversible error, we AFFIRM the judgment.

- 12 -

